No. 20A128

In the Supreme Court of the United States
JEFFERSON DUNN, COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS,
Applicant,

v.
WILLIE B. SMITH III,

Respondent.
To the Honorable Clarence Thomas, Associate Justice of the United
States Supreme Court and Circuit Justice for the Eleventh Circuit
CERTIFICATE OF COMPLIANCE
I, Diana Verm, a member of the Bar of this Court and counsel for the amicus on the
accompanying Motion by The Becket Fund for Religious Liberty, with Attached Proposed
Amicus Curiae Brief in Support of Respondent, for Leave (1) to File the Brief and (2) to
Do So without Ten Days’ Notice, certify under Rule 33.1(h) of the Rules of this Court
that the motion contains 475 words and the brief contains 3,210 words, excluding the
parts that are exempted by Rule 33.1(d).

Diana M. Verm
Counsel of Record
The Becket Fund for Religious Liberty
1919 Pennsylvania Ave. NW
Washington, DC 20006
Tel: (202) 995-0095
dverm@becketlaw.org

